Supreme Court, U.S.
FILED

N

20-7739

MAR 1 0 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

PATRICK J. GAGE

— PETITIONER

(Your Name)

vs.
REED A. RICHARDSON

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Patrick J. Gage #397479, pro se

(Your Name)
Stanley Correctional Institution
100 Corrections Drive

(Address)
Stanley, WI 54768-6500
(City, State, Zip Code)
N/A

(Phone Number)

Aft

QUESTION(S) PRESENTED
Does habeas corpus esist for state criminal defendants?
Does the Sixth Amendment Right to effective assistance of
counsel exist for Gage?
Is the state court's decision reasonable when it does not act
in food gaith to honor the constitutional rights of Gage?

-i-

- ^

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
Cxi All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows: Chris Buesgen (now the Warden of Stanley
Correctional Institution, who has custody of Gage)

RELATED CASES
Wisconsin Cases
State of Wisconsin v. Patrick J. Gage, 09-CF-89, Juneau
County Circuit Court. Entered on January 30th, 2014.
State of Wisconsin v. Patrick J. Gage, No. 2014AP433-CR,
Wisconsin Court of Appeals- Judgment entered on October
1, 2015.
Federal Cases
Gage v. Richardson, No. 16-cv-849-jdp, District Court of
the Western District of Wisconsin. Judgment entered on
April 29, 2019.
Gage v.Richardson, No. 19-2002, U.S. Court of Appeals for
the Seventh Circuit. Judgment enteredn on October 21, 2020/

-ii-

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

20

CONCLUSION

24

INDEX TO APPENDICES
APPENDIX A

Decision of the United States Court of Appeals
for the Seventh .Circuit.

APPENDIX B

Decision of the District Court of the Western
District of Wisconsin.

APPENDIX C

Decision of the Wisconsin Court of Appeals.

APPENDIX D

Decision of the Juneau County Circuit Court.

APPENDIX E
APPENDIX F

—iii-

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Harrington v. Richter, 562 U.S. 86 (2011).'.

22, 23

Pihoda v. McCaughtry, 910 F.2d 1379 (7th Cir 1990)

21

State v. Harvey, 407 N.W.2d 235, 139 Wis.2d 353 (1987)

20

Strickland V. Washington, 466 U.S. 668 (1984)

16,. 18, 19, 21, 23

STATUTES AND RULES
Wisconsin Statute 948.02(1)
Wisconsin Statute 948.02(1)(a)
Wisconsin Statute 948.02(2)
Antiterrorism and Effective Death
Penalty Act of 1996 (AEDPA)...........

5
,5
5
-.18, 20., 21, 22, 24

OTHER
Who Killed Habeas Corpus By Lynn Adelman

-i v-

21, 22, 23, 24

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

a

[x] reported at 978 F.3d 522
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__Q__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the Juneau County rirniit-

appears at Appendix

to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
1.

court

to

JURISDICTION
lx ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
Was October 21 , 2020_____
[x] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States CouK of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[x] An extension of time to file the petition for a writ of certiorari was granted
to and including 60 day extension (date) on March 19, 2020 (date)
in Application No.
A
• (due in 150 days due to covid-19)
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix ______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
. to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment Right to effective Assistance of Counsel
Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA)

-3-

STATEMENT OF THE CASE
Background
Patrick Gage and Laura Meeks divorced in 1996, when their
daughter, H.R.G., was about five years old.

H.R.G. and her

brother, Josh, would stay with Gage on weekends, one day during
the week, and sometimes for entire' summers at his home near
Mauston, which is a small town between the Wisconsin Dells and
Tomah in rural Wisconsin.
In August of 2008, Meeks found a diary entry of H.R.G.'s that
she thought indicated an unidentified person had sexually abused
H.R.G.

H.R.G. wrote the journal after visiting Gage in the Cayman

Islands where he had moved for his job.

H.R.G. testified at trial

that she was upset with Gage at the time she wrote the journal
because he had moved so far away from Wisconsin, despite her ‘later
accusation that he had continually assaulted her in the preceding
years.
Meeks confronted H.R.G.
the journal was her father.
her to a doctor.

Meeks asked H.R.G. if the person in
H.R.G. would not respond.

Meeks took

Meeks suspected the unidentified person was

Patrick Gage and told a nurse that.
to the authorities.

The matter was then referred

At * trial she claimed
that Gage had sexually
•

assaulted her from about 2001 to 2004 "almost every time" she
she stayed with him on the weekends and for entire summers.
There was no physical evidence, no eyewitnesses to an assault,
and no precise dates of offenses.

That left Gage in the unenviable

position of having few options of any concrete evidence to counter
H.R.G.'s claims.

He would have no alibi options, and very little

-4- '

to work with in terms of eyewitness testimony for conduct that
allegedly occurred years earlier.

It would come down to a

swearing contest, where H.R.G.'s credibility would be matched
against his.
t

Pretrial Proceedings
On June 26, 2009, the state filed a complaint charging Gage *
with five counts of sexual assault.

Three of those counts related

to his daughter, H.R.G., while she was still a child.

Two of the

counts related to a child of Gage's girlfriend who had lived with
Gage and H.R.G. for a time (A.L.P.), and made her allegations
after the police interviewed H.R.G. and H.R.G. had told them that
she thought

she had seen Gage touch A.L.P. years earlier.

On December 21, 2009,
r

an

Information charged Gage with three

r

counts of sexual.assault of a child under 13 years of age in
violation of WIS. STAT. § 948.02(1).

The first two counts were

alleged to have taken place at H.R.G.'s grandmother's house
between the spring of 2001 and May 2004, some four years prior of
the report to law enforcement,

H.R.G. would have been between the

ages of nine and twelve years old.

The third count was alleged to

have taken place in a cabin’ that was built behind H.R.G.'s
grandmother's house.
old (about 2004).

H.R.G. also would have been twelve years

The Information also charged one count of sexual

assault of a child under 16 years of age in violation of WIS. STAT.
§ 948.02(2).

Two additional counts charged Gage with committing

three or more acts of sexual contact with the same child in
violation of WIS. STAT. § 948.025(1)(a).
A.L.P •

I

Those counts related to

the daughter of Gage's former girlfriend.

acquitted of those counts.

-5-

Gage was

Trial
Gage's jury trial took place on November 8, 9 and 1‘0/ 2011.
Seven witnesses testified: H.R.G., her mother, Laura Meeks, A.L.P.,
A.L.P.'s mother, Melissa Stanton, detectives Timothy Andres and
Shaun Goyette, and Gage.
defense.

Gage was the only witness called by the

Indeed, counsel did not interview any witnesses or

apparently conduct any independent defense investigation.
.

At trial, H.R.G. testified that Gage sexually assaulted her

during her visits.

Indeed, she testified that it happe-ned •

"almost every time I visited."

H.R.G. testified that the first

time it happened was sometime in 2001, while Gage lived with his
mother, Nancy Gage, at her home in Marion, Wisconsin,

H.R.G.

described that Gage, H.R.G. and Josh would all sleep in the
finished basement of the house.

The stairs led down into a

living room in the basement, which had an "L"-shaped couch and a
reeliner.
opened

The bedroom was adjacent to the living room,

right

Its door

where the stairs landed in the living room,

She

described the space as small, and the rooms very close together.
H.R.G. said that when the first assault happened, when she was
nine years old, Josh was sleeping on the couch in the living room,
and that the assault happened some ten feet away in the bedroom
with the door closed.

She testified that Gage touched her "boobs

over her clothes" and tried to put his penis in her mouth.

On

cross-examination she said that the first time she told anyone
about the details of this specific assault was in preparation for
trial despite numerous police interviews, but she hadn't recalled
the details until then.

This was her testimony as to Count One

of the Information.

-6-

H.R.G. testified that the second assault happened in the same
house sometime during the summer of 2001.

That time, she testified

that Gage touched her vagina beneath her clothes while she was on
the couch in the basement living room.
bedroom next to the living room.

Josh was sleeping in the

She conceded that at any time

either Josh or Nancy could have walked into the room.

On this

occasion, she said that assault ended after she cried and ran
upstairs .

.

During her time living at Nancy's home, H.R.G. testified

that there was a second upstairs bedroom next to Nancy's in which
she could have slept but she never chose to sleep there even after
the alleged ongoing assaults..
The third alleged assault took place in the summer of‘2004, in
a roughly built cabin on Nancy's property. Josh slept directly below
a loft area, which was H.R.G.'s sleeping space.
accessible by a ladder.

The loft was

She testified that it was a small, open

cabin, where sound travelled.

She testified that one night, Gage

climbed the ladder to the loft, touched her vagina with his mouth,
and attempted to put his penis in her mouth.
that it ended after she began to cry.

She further testified

They then played a video

game.

During the alleged assault Josh was directly below H.R.G.'s

lof t.

She testified that this was the only assault in the cabin.

The final alleged assault took place in a small house in Lyndon,
Wi-sconsin.

H.R.G. was sleeping on the couch in the living room.

H.R.G. testified that Gage came home at night, sat on the couch,
and began touching her vagina over her clothes.
Gage, and it ended.

H.R.G. kicked

She testified on cross-esamination that it

was a very small house, and that if someone had walked out of the
bedroom into the living room they would see whatever was happening

-7-

on the couch.
H.R.G. also testified that she saw what she thought was Gage
touching A'.L.P.

H.R.G. was on one end of the L-shaped couch, and

Gage and A.L.P were laying together on .the other end.
covered by a blanket.

They were

H.R.G. thought she saw movement under the

blanket near A.L.P.'s midsection.

The alleged assaults of A.L.P.

had taken place years earlier as well.
Throughout her testimony, H.R.G. had trouble recalling details.
For example, she could only estimate that the first assault took
place when she was nine or ten years old.

She also made

inconsistent statements, such as originally telling the police
that Gage always slept naked, but then testifiying at trial that
he never slept..naked .
Laura Meeks, Gage's ex-wife and H.R.G.'s mother, also testified.
In relevant part, she testified that she recalled that a few times
when she picked H.R.G. up from a visit to Gage she looked in the
rearview mirror and saw "tears down her [H.R.G.’s] face."

She

could tell H.R.G. was sad, but at the time thought it was because
"I was taking—ripping our family apart because we weren't
together."

The clear inference from the state eliciting that

testimony was that H.R.G. might have been crying about being
abused.

Meeks furhter testified, however, that H.R.G. never

refused to visit her dad.

And Meeks testified that.H.R.G. had

never, even at the time of her testimony, told Meeks the specifics
of her allegations.
The defense strategy at trial was that H.R.G. should not be
believed.

Moreover, defense counsel argued that there was no

physical evidence, and that H.R.G.'s lack of detail cast doubt

-8-

on the credibility of her claims.

Time and time again in closing

.arguments, defense counsel pointed to the lack of privacy in the
houses in which H.R.G. claims to have been assaulted, and the fact
that either Josh or Nancy could have walked in at any moment made
H.R.G.'s claims more doubtful.
And Gage advanced those very facts as best he could in his
testimony.

But no other witnesses were called to corroborate his

testimony.

Gage plainly denied any instance of sexual assault.

In his closing argument, trial counsel repeatedly pointed to
Josh's proximity to the alleged assaults.

Further, defense counsel

argued in closing:
Josh was present in these houses at all times. Where was
Josh today or yesterday? Or Tuesday. Where was he?
Wouldn't you'think that Josh would have had something to
add to this? Wouldn't.you think he'd say, well, yeah.
Dad was kind of strange around H.R.G. or dad slept in the
bedroom with H.R.G.'or dad slept on the couch with H.R.G.
and would touch her. I don't know why he wasn't here. '
He's a potential witness. Did anybody interview Josh?
Gee I didn't hear that. Why interview Josh? We don't
need somebody that might be able to say no. Dad wouldn't
do that... Nobody interviewed Josh. Nobody talked, to Josh.
And Josh didn't testify here.
In its rebuttal closing argument, the state effectively knocked
down the straw man counsel had made out of Josh.

It countered

that Josh should have testified for the defense.

"They could .of

subpoenaed him.

It's his son.

If Patrick Gage wanted his son to

testify, he could have brought him here."

The state concluded:

"He could have called his own son. Maybe it's because Josh had
nothing to say. "
The jury returned a split verdict.

It found Gage not guilty

on Count 1, which charged the first alleged assault.

It found

Gage guilty on Count 2, which charged the second alleged assault-

-9-

at Nancy's home when H.R.G. was 9 or 10 years old.

It found Gage'

guilty on Count 3, which charged the assault in the cabin sometime
in the summer of 2004.

And it found Gage guilty on Count 4 which

charged the alleged assault in Lyndon, Wisconsin.

The jury

acquitted Gage on both counts related to A.L.P.
Clearly, this was a close case when the jury found Gage guilty
on Count 1, which contained the same level of detail as^the counts
on which it acquitted him.

It also acquitted him on both counts

related to A.L.P. for which H.R.G. had offered testimony specific
to A.L.P.'s claims.
Postconviction Hearing
Gage filed a postconviction motion in which he raised his claim
of ineffective assistance of counsel.

Three witnesses testified

at the postconviction hearing: Josh Gage, Nancy Gage, and trial
counsel.
Josh Gage.

Josh Gage is Patrick Gage's son, and H.R.G.'s older

brother by a year and a half.

He testified that during the time

H.R.G. said Patrick Gage assaulted her, he and H.R.G. would visit
their father every other week during the school year, and then
stay with him for most of the summer.
Around 2001, the timeframe for counts one and two, Josh
testified that they would stay at his grandmother Nancy's house
Near Mauston, which is where Gage lived at that time.

He testified

that he and H.R.G. always visited their dad together.

Josh

described the house consistently with prior descriptions of it.
Specifically, he testified that the living room in the basement
was adjacent to the bedroom space, and the Nancy's sewing room
was open to the living room.

He testified that he, H.R.G. and

-10-

their father would sleep in the basement.
leave their suitcase in the bedroom.

He and H.R.G. would

H.R.G. usually slept in one

corner of the large L-shaped couch in the living room of the
basement.

On cross-examination he testified that he didn't

remember H.R.G. sleeping in the bedroom, which is where H.R.G.
testified Count One took place.

Josh would usually sleep on the.

pullout bed portion of the couch, but on occasion may have slept
in the bedroom.
Josh also testified that Gage would usually fall asleep in a
recliner by 8 p.m.

Josh would sometimes try to move Gage into

the bedroom, or would otherwise just leave him in the recliner.
Josh stayed up the latest, and usually did not go to sleep until
between 1 a.m. and 3 a.m. on most nights.
watching movies or playing video games.
asleep before Josh, but well after Gage.
last one to go to sleep.

He would s-tay up late
H.R.G. would usually fall
Josh was usually the

He would turn off the TV and the lights.

Josh Gage testified that he never saw Gage touch-H.R.G. in a
sexual way, just as he had told the police prior to trial.
With respect to the cabin where H.R.G. claims that Count 3
happened sometime in 2004, Josh testified that he and H.R.G. helped
«

Gage build the cabin, and that it was an enjoyable experience with
their father.

He preferred staying in the cabin to staying in

Nancy's house.

Josh described the cabin as small and that sound

would travel through it.
would hear them.

If people were talking in the cabin, he

There was an open room, a bedroom, and a loft.

Josh slept in the bedroom.
directly above his bed.

H.R.G. slept in the loft, which was

There was a ladder that went up to the

loft that made a "creaky noise" whenever someone climbed it.

-11-

Josh testified that he would stay up late just like he did when
he stayed' in Nancy's house, and that Gage went to sleep early,
followed by H.R.G •

t

just as they had at Nancy's home.

Josh also lived with H.R.G. and Gage at the house in Lyndon,
where H.R.G. claims that Gage assaulted her (Count 4).
was a little bit bigger than the small cabin.
a living room, and a bathroom.

He said it

It had one bedroom,

Josh slept in the bedroom.

worked at Kalahari Water Park form 4 p.m. to 10 p.m.

He

Josh stayed

up late, just as he always did, Gage would go to sleep early, and
H.R.G. would go to sleep second, just as they had at the other
residences.

There was no evidence that Josh had heard or witnessed

anything consistent with H.R.G.'s allegations of repeated,
continuous sexual assaults.
Josh further testified that after Gage's case had been charged,
he visited his father in jail.

He diescribed it as a social visit

prior to Gage's trial.
Nancy Gage.

Nancy Gage testified at the postconviction hearing

that she recalled the time period when H.R.G. says she was sexually
assaulted.

Nancy recalled the relationship between Gage and H.R.G.

as a'normal father-daughter relationship, and that she never
witnessed any change to that relationship during the time they
lived with her.

In the summer, when Patrick was working, Nancy

was the primary caregiver for the children.

Further, she testified

that she had a close relationship with H.R.G., and that they would
talk a lot.
toH.R.G •

t

She offered a bedroom on the main level of the house
but' H.R.G. preferred to stay in the basement with Josh

and her father.

Nancy would routinely stay up fairly late, until

about 11 p.m. (which is far later than Josh testified Gage would

-12-

go to sleep) .

And she would routinely access the sewing room in

the basement, even into the evenings.

That would have required

her to walk through the living room in the basement where H.R.G.
said the assault took place.

She also testified that from the

top of the basement, stairs, which landed on the main level in
,

the entryway, she could hear conversations in the living area of
the basement.

Just like Josh, there was no evidence that Nancy

had heard or witnessed anything consistent with H.R.G.'s
allegations of repeated, continuous sexual assaults,

Nancy

testified that she loved H.R.G. "very much to this day."

She

further testified that she would not lie for Gage.
Trial Counsel.

Counsel testified that he did not interview

either Josh Gage or Nancy Gage.

He described Gage's case as a

"he-said-she-said" case, where the state is relying on the
"testimony of the victims" in the absence of any physical evidence.
Prior to trial, counsel knew limited information about Josh
Gage.

He had information that Josh and H.R.G. were generally

together on most of the visits to Gage.
that was accurate or not.

But he did not know if

He also knew that Josh, H.R.G. and

Patrick were "all more or less sleeping in the same general area
of the various residences..." during each of the alleged assaults.
And that the spaces in which they-slept were closely confined
spaces.
Most importantly, counsel had information from a police report
that Josh didn't have any indication that anything sexual ever
happened between his father and H.R.G.

The report indicated that

Josh seemed upset with his father at the time of his police
interview in Octorber, 2008.

He testified, however, that a

-13-

summary of an interview of a witness in a police report is "not
something I would necessarily rely on on its own."

Counsel also

recalls his impression from Patrick was that Patrick and Josh were
"not on the best of terms at that time."
Despite the fact that counsel knew that Josh slept in the same
room , or at least the same small area where H.R.G. claimed that
she was assaulted by their father, counsel ‘did not think it prudent
to interview him.

Rather, counsel claimed he didn't interview

Josh because he did not think Josh had any favorable information,
he thought Josh was upset with Patrick, and that Josh loved his
sister."

"So that's pretty much why he was never really considered

as a viable witness for us."
But counsel testified that he did not know specifically what
Josh would have said if Josh had been interviewed (for the obvious
reason that he did not interview Josh).

Indeed, counsel stated

that he "assumed he [Josh] wouldn't add anything to the case."
He testified that he didn't know that Josh was with H.R.G. every
time she visited Patrick Gage.

Trial counsel also testifed that

he thought Josh slept in the bedroom, not on the couch,

He didn't

know that Patrick Gage usually fell asleep early, and was the first
on to fall asleep.

Neither did counsel know that Josh usually

stayed up the latest.
Trial counsel also did not interview. Nancy Gage,

Prior to

trial, Gage asked to speak with counsle about what his mother might
have to say if called as a witness.

Counsel went so far as to list

Nancy Gage as a witness on his witness list.

Indeed, counsel

testified that in his view, Nancy "was the only potential witness
that really had substantive or potentially substantive material."

-14-

But counsel didn't even bother to interview her, despited listing
her as a witness and acknowledging that doing so might prompt the
state to have a detective interview her prior to trial.

Just like

Josh, prior to trial counsel knew that Nancy lived at the same
residence with H.R.G. during the time that she claimed Gage
sexually abused her every time she visited him.
Postconviction Disposition
The circuit court denied the postconviction motion in its
entirety.

In so doing it made a few key findings,

First, the

trial court correctly found that H.R.G.'s credibility was
"everything" and that impeaching her was critical.

With respect

to trial counsel's failure to investigate Josh Gage's potential
testimony alnd call him as a witness, the court confusingly found
that once counsel decided not to call Josh as a witness, counsel's
decision not to interview him was reasonable:
Having made the decision not to call him [Josh] to the
stand, the decision not to interview him was easy because,
• once you know you're not going to call the guy to the
stand, there really isn't much point in wasting the time
on the interview. It is unnecessary. I do not think
that not interviewing a witness who you've already
decided not to call is deficient conduct.
With respect' to counsel's failure to interview Nancy Gage, the
circuit court found" "this was a credibility case,

And Nancy's

testimony, if believed by the jury would have underminded the
credibility of [H.R.G.].

Despite' that, conclusion, the circuit

court stated that it would not "sit here and say,
maybe he should have called her.

'Well gee whiz,

Maybe things would have been*

different.'...That's not the test that the Court has too [sic]
follow."
The trial court also declined to modify Gage's sentence, which

-15-

Gage had argued amounted to a life sentence.

The court commented

that none of us knows "when the good Lord will tap us on the
shoulder. "
Wisconsin Court Of Appeals
Gage appealed the postconviction court's decision.

In a Per

Curiam opinion, the Wisconsin Court of Appeals affirmed the circuit
court's denial of Gage's postconviciton motion.

It gave a short

shrift to his ineffective assistance of counsel motion, disposing
of it in two double spaced pages.

It-did not address Gage's

argument on the deficient performance, prong of Strickland, but
rather went straight to the issue of prejudice,

With respect to

the legal standard for the prejudice prong, the court wrote: To
prove prejudice, the defendant must additionally show that the
attorney's errors rendered the resulting conviction unreliable in
light of the other evidence presented."
In its brief analysis, the court noted that Josh's and Nancy's
testimony was consistent with H.R.G.'s trial testimony regarding
the physical description of the houses.and sleeping arrangements.
Specifically, the court of appeals noted that Josh testified that
"he 'usually' slept on the couch and sometimes slept in the
bedroom does not contradict the victim's testimony that each of
the siblings sometimes slept in the bedroom and sometimes slept on
the sectional couch with the pullout bed in the living room area."
But that is not an accurate summary of Josh's testimony,

In fact,

when asked specifically about whether H.R.G. slept in the basement
bedroom, Josh testified: "I recall her sleeping more on the couch.
I don't remember her sleeping in the bedroom."

When asked if it

was possible it could have happened a few times, he agreed.

-16-

Second/ the court of appeals noted that while Josh testified he
was "generally the last person to go to bed" and that he never
witnessed any sexual conduct between Gage and his sister, this did •
not undermine H.R.G.'s account because she claimed it happened
late at night.
Finally, as to Nancy, the court of appeals stated that her
testimony that "she did not generally go into the basement at
night was consistent with the victim's testimony and did not show
that Gage's mother would have been in position [sic] to witness
any of the alleged incidents."
That is the entirety of the court of appeals analysis of the
issue.

It concluded by stating "We therefore concluded that Gage

f

failed to establish any prejudice from any of counsel's, alleged
errors."

It did not cite the standard of prejudice it:used for

its analysis other than it's introductory statement of the legal
standard described aboved.

As the district court later observed:

"In reaching this conclusion, the court of appeals failed to
discuss some ndteworthy statements in Josh's and Nancy's ...
testimony."
Gage timely filed a petition for review in the Wisconsin
Supreme Court, which was denied.
Federal District Court
Gage filed a petition pro se in the Distirt Court for the
Western Distrcit of Wisconsin seeking a writ of habeas corpus
under 28 U.S.C. § 2254.

The district court found that counsel had

provided deficient performance,

Specifically, it concluded that

counsel knew "that the case against Gage would essentially boil
down to a credibility contest between Gage and H.R.G.

-17-

Any

testimony that would undermine H.R.G.'s allegations could be
critical.‘

But counsel failed to even investigate whether Josh or

Nancy could have provided testimony to bolster Gage's defense."
The district court found, however, that the state court's analysis
of the prejudice prong of Strickland was not "unreasonable."
Despite that conclusion, the district court noted specific
testimony that the court of appeals failed to address:
Josh's and Nancy's testimony that they never witnessed
any sexual touching or unusual behavior between Gage and
H.R.G. would have made H.R.G.'s testimony at trial that
Gage sexually assaulted her 'almost every time [she]
visited' at least somewhat doubtful. Josh's testimony
about the close sleeping quarters in all three residences
where the assaults occurred and the creaky ladder in the
cabin supports the- defense's theory that.Josh would have
likely heard or seen at least one of the assaults.
Nancy's testimony that she was the primary caregiver for
Josh and H.R.G • / that she had a close relationship with
H.R.G • / that H.R.G. refused her offer of a room upstairs
away from Gage, and that she thought H.R.G. and Gage had
a normal relationship, could have undermined H.R.G.'s
credibility. And the fact that the jury acquitted Gage
on count 1 suggests that they may have not found H.R.G.
to be entirely credible so that testimony supporting
Gage may have changed the outcome.
It concluded, though, that the decison was a "close enough
[call] that reasonable jurists might resolve it differently."
Accordingly, it issued a certificate of appealability on that
issue.
Seventh Circuit Court Of Appeals
The Seventh Circuit affirmed the district courts denial of
habeas relief.

It ruled that AEDPA deference still applied dispite

the fact that the state appellate court misstated and misapplied
the Strickland standard.

It stated that the state courts analysis

focused on the consistency between Josh's and Nancy's testimony at
the postconviction hearing and H.R.G.'s testimony at trial, which

-18-

can reasonably be interpreted as "whether the proffered testimony
could have affected the outcome or it's likely impact on the .
verdict, which is the correct standard under Strickland.
The court also ruled that the state court of appeals did not
base its decision on an unreasonable determination of the facts.
It stated that while the state court's finding that Josh and H.R.G.
both testified that they "usually slept on the couch and sometimes
in the bedroom" may not have been correct, it was not an
unreasonable interpretation of the testimony, stating- that a state
court's factual' finding is never unreasonable "merely because the
federal haveas court would have reached a different conclusion in
the first instance.
The Seventh Circuit concluded that there was a chance the
additional testimony could have changed the jury's mind, given the
case rested on the jury's determination of the credibility of the
witnesses, fair.minded jurists may well disagree over the extent'
to which Josh's and Nancy's testimony was consistent with H.R.G.'s.
But without any directly contradictory testimony,, it was reasonable
for the Wisconsin Appellate Court to conclude there was not a
resonable probability of a different outcome had they testified.

-19-

*

■

*

REASONS FOR GRANTING THE PETITION
The mistake Gage made like so many others is that he believed
in the ysytem.

Gage was given a court appointed attorney and

unknown to him at the time his nightmare had just begun and it
would never end.

Gage's attorney did nothing to investigate his

innocence and at trial Gage was the only one to testify on his
behalf.

The prosecutor even commented on Gage's son Josh not

testifying to the jury.

Josh and his mother Nancy were either in

the proximity of tthe alledged assaults or had direct contact with
H.R.G. after the alledged assaults, and could testify that they
saw no indications of the assaults ever happening.
The Wisconsin Court of Appeals has continually ruled that the
circuit courts factual findings must be given deference, see:
State v. Harvey, 139 Wis.2d 353,376, ’407 N.W.2d 235 (1987). However
•when the circuit court made a finding that "this was a credibility
case.

And Nancy's testimony, if believed by the jury, would of

undermined the credibility of [H.R.G.]."

The Wisconsin Court of

Appels realized the constitutional magnitude of this statement,
and in effect reversed the finding, it failed to consider it,
recognize it, or address it.

The court also failed to address

any testimony that would be benifical to Gage's claim.

The

Wisconsin Court of Appeals then determined that Gage was not
prejudiced by any of councel's alledged errors, in effect it had
done what it specifically ruled it would not do, it reversed the
circuit courts factual finding.
Before AEDPA the Seventh Circuit had ruled that a basis of
decision applied infrequently, unexpectedly, or freakishly maybe

-20-

'

'8 *

inadquate for the lack of notice and consistency/ may show that
the state is discriminating against the federal rights asserted/
Prihoda v. McCaughtry/ 910 F.2d 1379, 1383 (7th-Cir. 1990).
Because of AEDPA the district court could not address or correct
this, even though it stated that any testimony that would undermine
H.R.G.'s allegations could be critical.

The district court ruled

that the states analysis of the prejudice prong of Strickland was
not unreasonable and the Seventh Circuit ruled the same.

AEDPA

had killed any chance Gage had at having his constitutional rights
enforced.
Wisconsin Eastern Court Judge Lynn Adelman has written a paper
titled: "Who Killed Habeas Corpus?". As he stated in his paper the
writ of habeas corpus is explicitly recognized in the Constitution.
"Two great events in American history established the reach and
power of the writ.

The first was Reconstruction.

Amoung the

important constitutional amendments and statutes passed by the
Reconstruction-Congress was the Habeas Corpus Act of 1867 in which
the benifit of the Writ was extended to formaly enslaved people
and others convicted in state courts"..."[ T|] he Warren court in the
1960's extending - the procedual protections in the Bill of Rights
to criminal defendants in state courts."..."through haveas corpus,
state prisoners could go to federal court to vindicate their
rights." (Who Killed Habeas?, pg2)
Judge Adelman goes on to explain how the Supreme Court led by
Warren Burger and then by William Rehnquist created new obstacles
for habeas petitioners..

In 1996 the Antiterrorism and Effective

Death Penalty Act (AEDPA) was passed effectively preventing relief
*

to many prisoners whose convictions are obtained unconstitutionally,

-21-

(Who Killed Habeas Corpus?, pg3).
In 2011 this Court ruled in Harrington v. Richter/ 131 S.Ct.
770, that habeas corpus was only appropriate for addressing
"extreme malfuctions" ins state criminal justice systems "where
there is no possibility that fairminded jurists could disagree."
Harrington @ 786.

As Jusge Adelman pointed out this interpretation

is not supported even by the AEDPA, taken and taken literally,
would mean that a federal court could never grant relief because
to do so it would have to find that none of the state court judges
who denied the claim was a "fair-minded-jurist." (Who Killed
Habeas Corpus?, pg 3).

The interpertation in Harrington of the

AEDPA stops short of imposing a completed bar on federal court
relitigating claims already rejected in state proceedings,
Harrington @ 786.

The Harrington decision states that the reason

for this is because federal haveas review of state convictions
frustrates both the state's sovereign power to punish offenders
and their good-faith attempts to honor constitutional rights,

It

d-istrubs the states significant interest in repose for concluded
litigation, denies society the right to punish some omitted
offenders, and intrudes on state sovereignty to a degree matched
y

*

by few exercises of federal judicial authority (citations omitted),
Harrington, 787.
The States Courts Decision Is Not Reasonable
Because It Did Not Act In Good Faith
What the Harrington decision has done in effect is place the
states rights above individual rights.

The problem with this is

that the states actions are not always good faith attempts to
honor constitutional rights of individuals.

-22-

"[w]hereas federal

' •¥ •
judges have life tenure, judges in most states are elected or
subject to appointment or reappointment by officials who are
For a prisoner claiming she or

themselves subject to elections,

he" has been deprived of a constitutional right, there is a
substantial difference between having the claim heard by a judge
or judges with life tenure and a judge or judges who must be
reelected or reappointed. (How Killed Habeas Corpus?, pg 4)
Gage is filing this petition pro se, he does not have expensive
lawyers to do research or file it on his behalf.

He is asking

this Court to revisit it's ruling in Harrington v. Richter, which
makes it almost impossible for any habeas claim to be granted
relief in federal court.

In Gage's case the state circuit court

found a finding of fact that if the testimony of Nancy would of
been believed by the jury, it would of underminded the credibility'
bf H.R.G.

This was a he-said-she-said case, there was no physical

evidence, no witnesses other than his accuser, and yet Gage,Si
attorney failed to interview or investigate anyone that was in the
area when the alleged assaults happened.

This' was a close case

when the jury found Gage not guilty on 3 of the 6 counts.
The "state appellated court realized that there was no reason-able
or strategic reason- for trial counsel not to call John and Nancy
Gage to the stand, so it went right to the prejudice.prong of
Strickland, and disregarded its own case law to reverse the state
cirucit courts finding of fact.

It then failed to address any

testimony at the postconviction hearing that would be benifical to
Gage's claim.
If any case calls for revisiting the decision in Harrington, this
is it.

Gage asks that this court decide if the state court's

-23-

rw

r

decision is reasonable when it does not act in good faith to honor
Gage's constitutional rights, regardless of what reason's the
state gives for denying relief.
From 2007 to 2013 this court decided twenty-eight AEDPA cases
and denied relief in twenty-six (Who Kill Habeas Corpus?, pg7).
Gage asks that today this court address the following questions:
Does habeas corpus exist for state criminal defendants?Does the Sixth Amendment Right to effective assistance of
counsel exist for Gage?
Is the state court's decision reasonable when it does not act
in good faith to honor the constitutional rights of Gage?
Gage respectfully asks that his Writ of Habeas.Corpus be granted.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
AA/L—i

Date:

n
7>1kU ?,

-24-

